   January 16, 2004




Financial Management

Subsidiary Ledgers at the U.S.
Army Corps of Engineers
(D-2004-044)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CEFMS                 Corps of Engineers Financial Management System
KAR                   Key Accounting Requirement
USACE                 U.S. Army Corps of Engineers
          Office of the Inspector General of the Department of Defense
Report No. D-2004-044                                                    January 16, 2004
   (Project No. D2003FH-0042.001)

          Subsidiary Ledgers at the U.S. Army Corps of Engineers

                                    Executive Summary

Who Should Read This Report and Why? Civil service and uniformed officers who
perform financial management at the U.S. Army Corps of Engineers should read this
report. This report addresses the need for subsidiary accounting ledgers in the Corps of
Engineers Financial Management System.

Background. This report is one of a series to be issued on accounting and financial
statements at the U.S. Army Corps of Engineers, Civil Works. The Chief Financial
Officers Act of 1990 (Public Law 101-576) as amended by the Government Management
Reform Act of 1994 (Public Law 103-356) requires annual financial statement audits of
the Department of Defense. As part of the strategy to implement these laws, the Office of
Management and Budget further requires certain DoD entities, including the U.S. Army
Corps of Engineers, Civil Works to prepare audited financial statements. Prior financial
statement audits of the U.S. Army Corps of Engineers, Civil Works have resulted in
disclaimers of opinion because of material deficiencies in the statements and supporting
information.

The Corps of Engineers Financial Management System is the financial management and
accounting system used by the U.S. Army Corps of Engineers, Civil Works. The Corps
of Engineers Financial Management System was fully deployed in FY 1998 and
maintains the accounting data for an entity that employs about 36,000 civilian employees
and owns about $43.2 billion in assets worldwide.

Results. The Corps of Engineers Financial Management System does not include
subsidiary ledgers that support U.S. Army Corps of Engineers, Civil Works financial
statements. The supporting records for the various accounts are decentralized at
61 activities and are not automatically compiled into one subsidiary ledger that supports
the general ledger account. As a result, sums of subsidiary records differed with selected
Defense Departmental Reporting System trial balances for FY 2002 by an absolute value
of $2.8 billion. General ledger and subsidiary records are difficult to accurately reconcile
at the top level, audit trails are weakened, and reliable financial data are not readily
available either to Corps of Engineers financial managers or for audit, as required by
DoD guidance. The U.S. Army Corps of Engineers should program the Corps of
Engineers Financial Management System to automatically compile its decentralized
records, reconcile general ledger and supporting records, maintain complete audit trails,
and make error corrections at the transaction level. See the Finding section of the report
for the detailed recommendations.

Management Comments and Audit Response. The U.S. Army Corps of Engineers
concurred with generating and reconciling general ledger control accounts to their
supporting subsidiary data, but nonconcurred with programming the Corps of Engineers
Financial Management System to compile complete transaction registers for all U.S.
Army Corps of Engineers activities into a single subsidiary ledger. We believe that to
generate and reconcile the general ledger control accounts to their subsidiary data, a
single subsidiary ledger for each general ledger control account is necessary. We request
that the Commander, U.S. Army Corps of Engineers comment on the final report by
February 17, 2004. See the Finding section of the report for a discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.




                                            ii
Table of Contents

Executive Summary                                              i


Background                                                    1


Objectives                                                    2


Finding
     Subsidiary Ledgers at the U.S. Army Corps of Engineers   3

Appendixes
     A. Scope and Methodology                                  9
     B. Prior Coverage                                        10
     C. Report Distribution                                   11

Management Comments
     U.S. Army Corps of Engineers                             13
Background
    This audit was performed in support of the Chief Financial Officers Act of 1990
    (Public Law 101-576), as amended by the Government Management Reform Act
    of 1994 (Public Law 103-356). As part of the strategy to implement these laws,
    the Office of Management and Budget further requires certain DoD entities,
    including the U.S. Army Corps of Engineers, Civil Works to prepare audited
    financial statements. This report is one of a series resulting from our audits of the
    U.S. Army Corps of Engineers (USACE), Civil Works financial statements for
    FY 2002. This report discusses the need for subsidiary ledgers in the Corps of
    Engineers Financial Management System (CEFMS).

    The USACE is a complex organization with civil works and military missions,
    and it has a civilian workforce of about 36,000 employees. The Corps also
    contracts with commercial architecture, engineering, and construction firms for
    most of their design work and for all of their construction work.

    To better manage its mission, the USACE has invested approximately $76 million
    in the development and deployment of CEFMS. CEFMS is a financial
    management system, which integrates accounting and project management
    processes.

    Accounting transactions for the USACE, Civil Works are posted to the CEFMS at
    the activity level. USACE has 61 activities, including the districts and designated
    revolving funds. To accumulate data to support the preparation of financial
    statements, the account balances for the 61 activities must be compiled and
    adjusted to generate overall account balances.

    Financial statement audits in prior years have uniformly resulted in disclaimers of
    opinion because of material internal control weaknesses and specifically
    identified financial statement errors. For example, the U. S. Army Audit Agency
    issued disclaimers of opinion on selected USACE, Civil Works financial
    statements for FY 1994 and the Statements of Operations and Changes in Net
    Position for FY 1996, and selected financial statements for FYs 1997 through
    2000. The Office of the Inspector General DoD issued disclaimers of opinion on
    the Balance Sheet for FYs 2001 and 2002. Table 1 shows the results of the
    financial statement audits of USACE, Civil Works from FY 1994 through
    FY 2002. See Appendix B for additional information on the prior audits.




                                          1
                    Table 1. Financial Statement Audits of the USACE


 Activity     FY         FY        FY        FY       FY        FY       FY        FY         FY
             1994       1995      1996      1997     1998      1999     2000      2001       2002
   U. S.      D1         No        D1        D1       D1        D1       D1
   Army       FS4      opinion    OPS        FS3      FS3       FS3      FS3
   Audit                           and
  Agency                         SCNP2
    OIG                                                                             D1         D1
        6                                                                              5
   DoD                                                                              BS         BS5
1
  Disclaimer of opinion
2
  Statement of Operations and Statement of Changes in Net Position
3
  Financial Statements: BS, SCNP, Statement of Net Cost, Statement of Budgetary Resources, and
 Statement of Financing
4
  Financial Statements - other
5
  Balance Sheet
6
  Office of the Inspector General of the Department of Defense

Objectives
       Our overall audit objective was to evaluate the adequacy of subsidiary records in
       CEFMS, specifically whether those records constitute subsidiary ledgers that
       support the USACE, Civil Works general ledger account balances and, in turn, the
       financial statements. See Appendix A for a discussion of the scope and
       methodology. See Appendix B for prior coverage related to the objective.




                                                2
            Subsidiary Ledgers at the U. S. Army
            Corps of Engineers
            CEFMS does not contain subsidiary ledgers that support the general
            ledger account balances. Although the 61 USACE activities have the
            subsidiary records needed to develop a subsidiary ledger, CEFMS, as
            currently designed, does not ensure reliability of data required by USACE
            financial managers. CEFMS does not have the functional requirements
            needed to accomplish the periodic reconciliations required by
            DoD 7000.14-R, “DoD Financial Management Regulation.” Specifically,
            CEFMS does not provide for:

                    •   complete transaction registers for all USACE accounts in
                        single files or ledgers that are readily retrievable and that
                        provide an audit trail of adjustments or corrections made to
                        subsidiary records and

                    •   the proper reconciliation between the subsidiary ledger and the
                        general ledger.

            As a result, sums of subsidiary records differed with selected Defense
            Departmental Reporting System trial balances for FY 2002 by an absolute
            value of $2.8 billion. In addition, the general ledger account balances are
            not properly supported, and the information is not readily verifiable for
            financial and budgetary decision making or for audit as required by
            DoD 7000.14-R, “DoD Financial Management Regulation.”


Attributes of a Subsidiary Ledger
     A subsidiary ledger will itemize the supporting transactions and will provide all
     of the significant data elements for each transaction making up a general ledger
     account balance (for example, for receivables, the transaction date, aging, amount
     due, department originating the transaction, nature of the receivable, and identity
     of the debtor). This supports management oversight and facilitates audits such as
     those mandated by the Chief Financial Officers Act of 1990 and subsequent
     statutes.

     Implicit in the support for a general ledger account balance is that the subsidiary
     ledger will accumulate the data in one ledger or file, regardless of how many
     subdivisions an entity has (for example, 61 activities for the USACE). A
     subsidiary ledger must be periodically reconciled so it becomes a key part of the
     audit trail, from source document to financial reports, by virtue of the
     accumulation of all supporting data into one ledger that supports the general
     ledger account balance.




                                           3
Criteria
     DoD 7000.14-R, “DoD Financial Management Regulation,” volume 1, chapter 2,
     “Conceptual Framework,” addendum 2, May 1993, requires that an accounting
     system include a report writer that allows for user-defined reports without
     intervention of a programmer. These reports include aging of accounts receivable
     and other accounts as appropriate.

     DoD 7000.14-R, “DoD Financial Management Regulation,” volume 1, chapter 3
     addendum, “Key Accounting Requirements,” May 1993, identifies 13 key
     accounting requirements (KAR) for accounting systems. KAR No. 1, “General
     Ledger Control and Financial Reporting,” requires that an accounting system list
     both control and subsidiary general ledger accounts. KAR No. 8, “Audit Trails,”
     requires audit trails that allow a transaction to be traced from initiation to the
     processing to final reports. KAR No. 12, “User Information Needs,” states that a
     system must be able to meet user needs in a reliable and responsive manner.

     DoD 7000.14-R, volume 1, chapter 2, “Conceptual Framework,” May 1993,
     states that an accounting system encompasses the procedures and processes from
     when a transaction is initiated to the financial reports, and reports the data in
     detail or summary form. Chapter 2 also specifies that the general ledger and its
     subsidiary ledgers shall serve as the source database for financial reporting
     requirements. Additionally, subsidiary records are to be periodically verified to
     the general ledger balances.


CEFMS Transactions and Supporting Data
     The CEFMS does not contain subsidiary ledgers that support the general ledger
     account balances. Although the 61 USACE activities have the subsidiary records
     in CEFMS tables, the CEFMS tables do not provide the information required or
     allow for the functions required by DoD. In addition, CEFMS adjustments may
     be in the form of a top-level journal entry rather than individual changes to
     transactions that affect the audit trail.

     CEFMS Tables. The transaction data in CEFMS is posted to the system at the
     activity level and maintained at that level in individual tables within the database
     for a given account or sub-account. CEFMS has a large variety of pre-
     programmed reports that can be generated. Depending on the data desired, a
     report that could include a detailed listing of all transactions in a given general
     ledger account can be selected and run at the activity level. For example, the
     asset cost reconciliation (RECONAST) report shows the reconciliation of the
     Asset Cost Table to the general ledger. The data provided from 61 activities must
     be updated using batch processing in order to update the general ledger account
     balance for the entire USACE, Civil Works. CEFMS does not yet have a
     program to prepare one updated and compiled report for all 61 activities.

     The CEFMS tables are part of a relational database, and as such are linked
     together by key data fields common to multiple tables. A high number of reports


                                          4
    can be generated on demand, but only for a single activity. A separate query must
    be generated to compile data from each of the 61 activities if a user wants the
    USACE-wide total for a given account. On the other hand, CEFMS could be
    programmed to compile all the 61 activities’ data to generate a subsidiary ledger
    at any time.

    Accounting Entries. The USACE had made accounting entries in past years to
    adjust and reconcile its general ledger balances. Some of the entries were not
    properly documented, and others were made in response to audit
    recommendations and made as one top-level entry to correct an account balance
    without adjusting individual transactions. As a result, future reports generated
    from a subsidiary ledger based on individual transaction amounts remaining in
    these accounts still would not reconcile to the general ledger balance.
    Accordingly, correcting entries should be made at the level of the affected
    transactions. A subsidiary ledger adjusted at the level of the affected transactions
    to correct errors should therefore reconcile to, and support, an accurate general
    ledger account balance.

    Audit Trail. As stated in KAR No. 8, a good audit trail will allow transactions to
    be traced through a system from initiation to final reporting (for example,
    financial statements). The individual transactions are frequently quite numerous
    and need to be accumulated into an itemized list (a subsidiary ledger) that will
    support the balance for a given general ledger account. USACE, Civil Works, has
    61 reporting activities, each one with numerous transactions in multiple USACE,
    Civil Works general ledger accounts. The itemized list of all entity transactions,
    which is the basis for a subsidiary ledger, is the logical pathway from a mass of
    individual transactions to the general ledger account balance.


Reconciliation of CEFMS to Material Trial Balance Accounts
    To ensure accuracy and reliability, all data in subsidiary ledgers should be fully
    reconciled monthly. The data in CEFMS do not reconcile to material account
    balances in the U.S. Army Corps of Engineers, Civil Works trial balance for
    FY 2002. For seven audit samples from the FY 2002 trial balance; the
    Construction-in-Progress Account, Equipment Account, Accounts Receivable-
    Public, Accounts Receivable-Government, Accounts Payable-Public, Accounts
    Payable-Government, and the Land Account; the dollar amounts for the
    population files from which they were selected did not equal the dollar amounts
    of their respective reported values on the trial balance. Table 2 shows the
    differences between the sums of the subsidiary records and the Defense
    Departmental Reporting System trial balances as the absolute value of
    $2,769,520,401 as of November 26, 2002. These differences highlight the
    necessity for a subsidiary ledger.

    An official from the U.S. Army Corps of Engineers Finance Center stated that the
    FY 1998 Buildings and Structures Account was reconciled to the general ledger,
    from which the trial balance was prepared, by reversing FY 1999 journal
    vouchers and transactions. These procedures were necessary to obtain
    reconciliation because CEFMS does not contain subsidiary ledgers. However, the


                                         5
    reconciliation procedures performed for FY 1999 would also become necessary
    for subsequent years, unless the underlying weaknesses were corrected by
    implementation of subsidiary ledgers. The creation of journal vouchers and
    transactions would not be necessary to reconcile CEFMS to material control
    accounts in the general ledger if subsidiary ledgers were in place.

    As a result of not having subsidiary ledgers, CEFMS does not provide an
    adequate audit trail for tracing a specific transaction from its source to the
    resulting record in the subsidiary ledger and from the resulting record in the
    subsidiary ledger back to the source. An adequate audit trail would allow for the
    verification of the amount recorded.

      Table 2. Comparison of Population Dollar Totals for Selected Material
               Balance Sheet Amounts as of November 26, 2002

           Account              Dollar Total        Net Dollar Amount      Difference2
                                Populations        from DDRS1 FY 2002
                                                       Balance Sheet
      CIP3                  $10,155,063,144          $10,042,529,840        $ 112,533,304
      Equipment                 601,530,690              650,783,394            49,252,704
      AR4-Public              1,177,082,642              922,931,000           254,151,642
      AR-Government             249,573,657              528,149,000           278,575,343
      AP5-Public                584,627,450              595,951,682            11,324,232
      AP-Government              84,305,992               83,814,682               491,310
      Land                    5,982,607,539            8,045,799,405         2,063,191,866
      Totals                $18,834,791,114          $20,869,959,003       $2,769,520,401


      1
        Defense Departmental Reporting System
      2
        Absolute value
      3
        Construction-in-Progress
      4
        Accounts Receivable
      5
        Accounts Payable




Conclusion
    The absence of true subsidiary ledgers in CEFMS will, if not corrected, continue
    to impair the accumulation of data needed for preparing accurate financial
    statements. The quarterly and year-end reconciliation of general ledger accounts
    to the supporting data will continue to be excessively difficult if not performed
    monthly, and the audit trails that are required by the DoD Financial Management
    Regulation will remain weak. However, a programming change in CEFMS could
    facilitate the creation of a subsidiary ledger that would include the data from all
    61 activities and would support the general ledger account balance at any time.
    The subsidiary ledger should be in the form of a report that would be available on
    demand. The result would be easier accumulation of data needed to prepare
    financial statements, easier reconciliation, and a stronger audit trail.


                                               6
Recommendations, Management Comments, and Audit
  Response
    We recommend that the Commander, U.S. Army Corps of Engineers,
    Civil Works:

            1. Program the Corps of Engineers Financial Management System to
    compile complete transaction registers for all U.S. Army Corps of Engineers
    activities into a single subsidiary ledger for each general ledger account
    included in a financial statement line item. The subsidiary ledger should also
    reflect any error corrections at the level of the affected transactions instead
    of a single, top-level adjustment.

    Management Comments. The Commander, USACE nonconcurred with the
    recommendation, stating that the Corps of Engineers Financial Management
    System was not designed to, and does not, contain a single enterprise database.
    The Commander, USACE disagrees that the DoD Financial Management
    Regulation requires a single, subsidiary ledger for all activities, but agrees that for
    audit purposes, a single, corporate-level subsidiary ledger would be more useful
    for the auditors. Currently, subsidiary ledgers are maintained at each of the
    61 databases and query capability exists to obtain the needed subsidiary
    information. USACE also stated that additional reports could be made available
    that would reflect activities at the enterprise level.

    Audit Response. The U.S. Army Corps of Engineers comments are not
    responsive. Although the DoD Financial Management Regulation does not
    specifically state that a single subsidiary ledger is required, volume 1, chapter 2,
    020204, “General Ledger,” does state, “Accounting systems and subsystems or
    modules shall be fully integrated with the central general ledger.” The Corps of
    Engineers does not have a system that is fully integrated with the central general
    ledger. Financial information flows from the 61 activities into the general ledger
    control accounts. The information in the control accounts is then copied to the
    Corps of Engineers Enterprise Management Information System, which is then
    uploaded and transferred into the Defense Departmental Reporting System. To
    ensure the accuracy and integrity of financial statements, or to search for errors,
    auditors and Corps of Engineers financial managers, must sort through three
    layers of summarized data to analyze the accounts. Further, we are uncertain how
    adjustments made at the business unit level will be timely reflected in the
    financial statements.

            The Corps of Engineers comments agree that a single subsidiary ledger
    would facilitate auditing, and the DoD Financial Management Regulation requires
    that financial data be readily auditable. Key Accounting Requirement Number 8
    states that an audit trail should allow auditors or evaluators to ensure transactions
    are properly accumulated and correctly classified, coded, and recorded in all
    affected accounts. This section also states that a compliant accounting system
    requires that the financial transactions be adequately supported with pertinent
    documents and source records. Every transaction must be traceable to individual
    source records.



                                           7
        Our recommendation to program the Corps of Engineers Financial
Management System to compile complete transaction registers into a single
subsidiary ledger would, if implemented, afford auditors and Corps of Engineers
management access to transaction data without delving through layers of
summaries. We have not suggested that the Corps of Engineers do away with the
individual business unit records. We simply recommend that all of the data be
summarized in one location. The Corps of Engineers comments recognize that
additional reports to reflect the activities at the enterprise level, in support of the
Defense Departmental Reporting System, would be useful. Therefore, we do not
understand the Corps of Engineers reluctance to prepare and reconcile subsidiary
ledger reports at the enterprise level for the Corps of Engineers Financial
Management System. Instead of requiring queries to be written when needed, the
Corps of Engineers Financial Management System could have a standard query
executed at the close of each accounting period to reflect the general ledger
control account balances. This would serve as the subsidiary ledger for each
account. Once this is done, the information could be archived for future use. We
request that the Corps of Engineers reconsider its position and provide additional
comments on the final report.

      2. Generate and reconcile the general ledger control accounts to their
supporting subsidiary data at the close of each accounting period and
maintain a record of the subsidiary ledgers as an audit trail.

Management Comments. The Corps of Engineers concurred and stated that the
Corps of Engineers Financial Management System automatically generates
14 reconciliation reports each night. The Corps of Engineers also recognizes the
need for additional reconciliations and is currently modifying the Corps of
Engineers Financial Management System program to ensure that all accounts
payable and all appropriations are reconciled each night.

Audit Response. The Corps of Engineers comments are responsive, however,
further clarification is requested. We wish to emphasize the importance of
maintaining the reconciliation reports at the end of each accounting period as an
audit trail. If the data are not archived to provide an audit trail, then the purpose
of Recommendation 2. could be circumvented. We request that the Corps of
Engineers provide assurance of its intention to archive the reconciliation reports
in comments on this final report.




                                       8
Appendix A. Scope and Methodology
   As part of our effort to determine whether the USACE used subsidiary ledgers as
   part of its accounting system, we observed a live demonstration of CEFMS
   processing a transaction from the point of initiation through to the general ledger.
   We received and reviewed the, “CEFMS Users Manual Asset Management,
   Section 12, Appendix B,” dated June 6, 2001. We received and reviewed an
   outline of the live demonstration dated February 13, 2002. We received and
   reviewed a listing of all the tables in CEFMS as of February 13, 2003, as well as
   status reports and reconciliation reports dated February 13, 2003. We interviewed
   officials from the USACE Financial Center, Directorate of Financial Systems
   Development and Maintenance who were directly involved in the development of
   CEFMS.

   We performed this audit from February 2003 through August 2003 in accordance
   with generally accepted government auditing standards. We did not review the
   management control program because the agreed-upon procedures, which were
   the basis of the audit, did not specify the management control program.

   Use of Computer-Processed Data. We used computer-processed data to
   perform this audit. The information system from which we used computer-
   processed data is CEFMS. The data from CEFMS was secondary evidence and
   was used in conjunction with other evidence gathered, which served as a basis for
   the results, findings, and recommendations of this audit. Prior audit reports
   concluded that CEFMS general and application controls could not be relied on for
   transactions affecting the financial statements, and the data were unreliable.
   However, the lack of reliability of the data did not affect the results of our audit.
   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the Defense Financial Management high-risk area.




                                         9
Appendix B. Prior Coverage
    During the last 5 years, the General Accounting Office (GAO) and the Inspector
    General of the Department of Defense (IG DoD) have each issued two reports
    related to the U.S. Army Corps of Engineers financial statements. The Army
    Audit Agency has issued three reports related to the U.S. Army Corps of
    Engineers financial statements. Unrestricted GAO reports can be accessed over
    the Internet at http://www.gao.gov/. Unrestricted IG DoD reports can be accessed
    at http://www.dodig.osd.mil/audit/reports.


GAO
    GAO Report No. GAO-02-589, “Information Security; Corps of Engineers
    Making Improvements, But Weaknesses Continue,” June 2002

    GAO Report No. GAO-01-89, “Financial Management; Significant Weakness in
    Corps of Engineers Computer Controls,” October 2000


IG DoD
    IG DoD Report (unnumbered), “U.S. Army Corps of Engineers, Civil Works,
    FY 2001 Financial Statements,” February 20, 2002

    IG DoD Report No. D-2001-067, “Inspector General, DoD, Oversight of the
    Army Audit Agency Audit of the FY 2000 U.S. Army Corps of Engineers, Civil
    Works Programs, Financial Statements,” February 28, 2001


U.S. Army Audit Agency (AAA)
    Audit Report No. AA 01-319, “Corps of Engineers Financial Management
    System General and Application Controls,” June 26, 2001

    Audit Report No. AA 01-187, “FY 2000 Financial Statements U.S. Army Corps
    of Engineers, Civil Works,” February 14, 2001

    Audit Report No. AA 00-186, “FY 1999 Financial Statements U.S. Army Corps
    of Engineers, Civil Works,” February 18, 2000




                                       10
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, U.S. Army Corps of Engineers

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Unified Commands
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organization
Office of Management and Budget




                                          11
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        12
U.S. Army Corps of Engineers Comments




                     13
14
15
Team Members
The Defense Financial Auditing Service Directorate, Office of the Deputy
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
David F. Vincent
Barbara A. Sauls
Jonathan M. Rabben
Woodrow W. Mack
Ann Thompson
